                                      TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



September 28, 2012

Diane T. Wear, WT 4B-K

REQUEST FOR NOTIFICATION OF PLANNED ACTIONS – INSPECTION 2012-14531 –
COMPLETION OF POWERPLANT’S PROJECT/PORTFOLIO MANAGEMENT
FUNCTION



Because of the importance of successful capital project management, and in light of recent
capital project cost overruns and schedule delays, the Office of the Inspector General
(OIG) initiated a review of Tennessee Valley Authority’s (TVA) capital project
management. The objective of our work was to determine whether the Project/Portfolio
Management (PPM) function of PowerPlant meets the needs of the strategic business
units (SBU).1

TVA achieved some project and portfolio management capability with the new system, but
considerable opportunity for improvement exists. Specifically, as a result of our review, we
identified (1) the PowerPlant PPM tools do not currently meet all needs identified by the
SBUs, (2) users feel they have not been adequately trained on some functions of the
system, and (3) communication of defects that have been resolved would benefit users.

We recommend the Vice President and Controller (1) consider implementing additional
project management functionality available in the PowerPlant system or purchasing
another system to provide a PPM tool to more efficiently and effectively manage TVA’s
capital projects, (2) complete additional PowerPlant training as planned, and (3) develop a
strategy for communicating system changes, upgrades, and modifications.

TVA Management generally agreed with our findings and recommendations.




1
    The original objective was to evaluate cost and schedule performance on capital projects. However, data
    inaccuracies and other issues made it impossible to complete the original objective timely and cost
    effectively. Specifically, we found the capital projects information converted from the old system into the
    current capital project management system, PowerPlant, was inaccurate or incomplete. The previous
    system, Project Justification System (PJS), did not track projects in phases, so there was no way to identify
    the definitive estimate in the system in order to determine if the projects were completed on time and within
    budget. Also, PJS did not contain a mechanism to close a project upon completion, so most projects
    converted into PowerPlant in an open status even though the projects were complete. We could not obtain
    an accurate sample, in a timely manner, because some projects that should have been included in our
    population were still in open status, and the projects that had been closed did not have the actual closure
    date. As a result, we decided not to complete the original objective.

        WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
        distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
                is not to be further distributed without prior approval of the Inspector General or his designee.

                                      TVA RESTRICTED INFORMATION
Diane T. Wear
Page 2
September 28, 2012




BACKGROUND
According to TVA’s President and Chief Executive Officer, “Capital projects are major
investments with long-term value, everything from transmission lines to fossil plant
scrubbers to steam generators for nuclear plants. Completing these projects in the time
we have planned and for the amount we have budgeted is a huge challenge and
responsibility. But failing to hit these targets can cost TVA money and that can lead to
higher electricity prices.”

From 2009 to 2011, TVA spent a total of $6.2 billion on construction expenditures. A
historic capital projects analysis performed by TVA’s Compliance group in 2011 determined
that in the last 5 years, on projects greater than $8 million, only 38 percent came in on time
and on budget. Due to the focus on rates in 2012, and since getting the most for TVA’s
money is critical to keeping TVA’s electric rates competitive, TVA began a Capital
Productivity Initiative to help define and prioritize the tools, processes, training, and actions
to make sure TVA is getting the most from its capital dollars.

TVA Standard Programs and Processes (SPP) 19.3, Project Justification Process, defines
the process for planning, prioritization, review, approval, evaluation, monitoring, and
closure of Capital and Operating and Maintenance Projects. SPP 19.3 requires each
strategic business unit to have a process for (1) forecasting project costs and schedules
and (2) identifying changes to a project’s cost, schedule, scope, and benefits for those
projects in the authorized project plan.

SPP 19.3 required each project to be entered into PowerPlant, which serves as the official
database containing supporting project data and project approval status. PowerPlant
replaced TVA’s PJS on March 7, 2011, at a cost of about $7 million. PowerPlant was
implemented to replace the assets module within the Enterprise Financial Management
System,2 while also providing the functionality to centralize project and portfolio
management. However, as discussed below, the PPM module has additional functionality
beyond the currently implemented features that could improve TVA’s project and portfolio
management.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our work was to determine whether the PPM function of PowerPlant
meets the needs of the SBUs. In order to determine whether the PPM function of
PowerPlant meets the SBUs needs, we:

    Interviewed Portfolio and Project Managers and other users of the PowerPlant system.
    Identified and reviewed relevant policies and procedures related to TVA’s capital
     project management.
    Reviewed PowerPlant project documentation.



2
    Enterprise Financial Management System integrates TVA’s financial systems, including the general ledger,
    accounts receivable, and treasury and cash management.
                                  TVA RESTRICTED INFORMATION
Diane T. Wear
Page 3
September 28, 2012



This review was conducted in accordance with Quality Standards for Inspection and
Evaluation.

FINDINGS

Our review identified issues with the PPM function in the PowerPlant system. Specifically,
(1) the PowerPlant PPM tools do not currently meet all needs identified by the SBUs,
(2) users feel they have not been adequately trained on some functions of the system, and
(3) communication of defects that have been resolved would benefit users.

Through our interviews with Portfolio and Project Managers, we received feedback related
to the PPM function of PowerPlant. Portfolio Managers monitor various aspects of project
performance for projects in their strategic business unit, while Project Managers are
responsible for the overall planning and execution of assigned projects. According to the
project justification form for the PowerPlant project, the reason for changing from PJS to
PowerPlant included project budgeting and forecasting. The scope of the project included
standardizing portfolio management functionality and centralizing project portfolio
management processes, including:

    Scratch padding.3
    Project initiation.
    Project prioritization.
    Analysis and selection.
    Standardized workflow for authorization.
    Project metrics.
    Project cost and estimate reporting, including actuals to budget.

According to the sponsors of the PowerPlant project, the fixed assets module was the
priority of the project. The PPM module in PowerPlant provides project and portfolio
management functions not available in PJS like (1) automated approval workflow,
(2) project initiation, and (3) project closure.

However, the PowerPlant tools do not currently meet all needs identified by the SBUs.
Specifically, the reporting, forecasting, data monitoring, and portfolio prioritization functions
need changes and customization to provide a more effective solution to project
management. Part of the problem description on the project justification form states that
project cost versus budget information is very difficult to assimilate, and there is a need for
flexible and powerful project reporting (e.g., estimates to actuals and project performance).
According to TVA’s plan for the PPM function in PowerPlant, the system “ . . . has a
powerful reporting tool, making available many standard reports, giving users the ability to
modify existing reports and saving them, and allowing the user to build reports from
scratch.” However, according to a document of identified defects compiled by a group of

3
    Scratch Padding is the tool for creation and development of conceptual projects. The detailed estimates
    are developed here, along with updated economic indicators to proceed for approval.
                                   TVA RESTRICTED INFORMATION
Diane T. Wear
Page 4
September 28, 2012



PowerPlant users, they do not have access to report writing capabilities, they have not
been trained on queries or reporting, and the canned reporting functionality is based on
calendar year rather than fiscal year. This creates inefficiencies because reports have to
be manually developed over and over again. Additionally, there is some data that is
unavailable through the current reporting tools.

PowerPlant provides many opportunities for efficiency and direct benefits to the PPM
process. However, according to several Portfolio Managers, because PowerPlant does
not provide the tools for effectively managing projects, they continue to use Excel
spreadsheets or other project management software to manage their projects. This
creates repetition in dual data entry into multiple systems and spreadsheets.

In 2011, a user group began compiling a list of identified issues with PowerPlant. The list
included a total of 96 issues, with 19 of urgent priority and 29 of high priority. As of
July 2012, 8 urgent priority issues and 15 high priority issues remain. Several issues
related to the need for further instruction or training in using the system. TVA is targeting
early 2013 for classroom- or computer-based training related to queries and reporting. The
user group formed after implementation of the system met throughout 2011 but disbanded
after the reorganization in early 2012, due to lack of funding and lack of progress made on
the system.

In March 2012, Generation Construction provided $75,000 for consultants to work on
some of the identified issues. Several system reports based on fiscal year were added,
and the forecasting function was completed. The reports were put into production in May
and communicated to users in July. However, the rollout of the forecasting function is still
in the process of being determined. While TVA has recently resolved some issues in the
PowerPlant system, there is still an opportunity to provide the full benefits available in the
PowerPlant system and to communicate the work being done to users. Several Portfolio
or Project Managers interviewed did not feel adequate progress was being made on the
system and the issues they had raised.

RECOMMENDATIONS

The OIG recommends the Vice President and Controller (1) consider implementing
additional project management functionality available in the PowerPlant system or
purchasing another system to provide a PPM tool to more efficiently and effectively
manage TVA’s capital projects, (2) complete additional PowerPlant training as planned,
and (3) develop a strategy for communicating system changes, upgrades, and
modifications.

TVA Management’s Comments – Management provided some clarifying comments
regarding the report. In general, management agreed with the findings and
recommendations in the report. See the Appendix for management’s complete response.

                           -       -       -       -      -       -




                               TVA RESTRICTED INFORMATION
Dia
  ane T. Wear
Pag
  ge 5
September 28, 2012



Youur comments to the drafft report have e been incorrporated. Please advise  e us of your
planned actions in respons se to our reccommendatio  ons within 600 days of the
                                                                              e date of thiss
rep
  port. Informaation contain
                           ned in this re
                                        eport may be e subject to public disclo
                                                                              osure. Pleasse
advvise us of an
               ny sensitive information in this reporrt which you recommend   d be withheldd.

If you
   y have any               o wish to discuss our o bservations,, please con
                y questions or                                             ntact Lindsayy J.
Denny, Auditorr, at (865) 63
                           33-7349 or Greg
                                       G    Stinsonn, Director, E
                                                                Evaluations, at
(8665) 633-7367 7. We appre            ourtesy and cooperation received fro
                           eciate the co                                   om your stafff
durring this review.




Robert E. Martin
Ass
  sistant Inspe
              ector Genera
                         al
 (A
  Audits and Evaluations)
              E
ET 3C-K

  D:DBS
LJD
Atta
   achment
cc (Attachmentt):
      Leslie C. Bazzoon, WTW 9C-K
      Micheal B.
               B Fussell, WT
                           W 7C-K
      Peyton T. Hairston, Jr.,
                            J WT 7B-K K
      Joseph J. Hoagland, WT 7C-K
      Tom Kilgoore, WT 7B--K
               W Moore, ET 4C-K
      Richard W.
      Emily J. Reynolds,
               R           OCP 1L-NST
      John M. Thomas,
               T         III, MR 6D-C
      Robert B.. Wells, WT 9B-K
      OIG File No. 2012-14  4531




                              TVA REST
                                     TRICTED INF
                                               FORMATION
                               APPENDIX
                             PAGE 1 OF 2




TVA RESTRICTED INFORMATION
                               APPENDIX
                             PAGE 2 OF 2




TVA RESTRICTED INFORMATION
